WAIVER
Supreme Court of the United States
No. 20-1572

v. Novartis Pharmaceuticals, Corporation,
et al.
(Respondents)

Ramon D. Johnson, II
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
o I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Bausch Health US, LLC

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
r of the Bar of this Court. Should a response be requested, the
ar ember. (Filing Instructions: Mail the original signed form
ler Office,
1 First Street, NE, Washington, D.C. 20543).
s

I am not presently
response will be
to: Supreme Co

j

Signature

June 2 2021

Date:

(Type or print) Name

David S. Waxman
IN Mr.

Firm

0 Mrs.

0 Miss

Saul Ewing Arnstein & Lehr, LLP

Address

161 North Clark, Suite 4200

City & state
Phone

0 Ms.

Chicago, IL

(312) 876-7867

zip 60601
Email

David.Waxman@saul.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc:

Ramon D. Johnson, II, Petitioner

RECEIVED
JUN - 7 2021
OFFICE OF THE CLEF
SUPREME COURT, U.

